         ACCOUNTING FOR DEFENSE LOGISTICS XGEXCY
             SUPPLY MANAGEMENT RECEIVABLES



Repxt   Number 9% 116                           Aprii 20 19%




              Office of the Inspector General
                  Department of Defense
    Additional Information    and Copies

    To obtain additional copies of this audit report. contact the Szcondarv Reports
    Distribution Unit of the Anai~sis. P!anning. and Tzchnical Suuport Directorate at
    (703) 604-8937 t DSN 664-8937) or F-AX ( 703) 604-8932 or visit the Inspector
    General. DOD. Home Page at: WWW.DODIG.OSD.,LlIL.

    Suggestions for Audits

   To suggest ideas for or to request future audits. contact the Planning and
   Coordination Branch of the Analysis. Planning. and Technical Support
   Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
   and requests can also be mailed to:

                      ,.O,UG-.AUD I .\TTN: XPTS .kidit Suggestions)
                        Inspector General. Department of Defense
                        -tOO&-my Navy Drive I Room 801)
                        .\riingron. Virginia ‘X02-9884

   Defense Hotline

   To report ti-aud. waste. or abuse. contact the Defense Hotline by ziling
   i800) 131-3098: by sending an 2lectronic message to
   Hotline@DODlG.OSD.?IlIL:       x by writing to the Detense Hotline. The
   Penta(7on. Washington. I? C. ZEOl-!PgO.       The identity: or’ 2ach wrir2r and iai!sr
   is .till~~protected.




Acronyms

DL.4                   Defense Logistics ,+Jgency
DBOF                   Defense Business Operations Fund
DF.-\S                 Defense Finance and Accounting Service
DEvlS                  Defense Integrated Subsistence Management System
PCHSrT                 Packaging. Crating and Handling. and Transportation
s.-\,\~l?vls           Standard ,Automated -Materiel Management System
T.AV                   Total &set Visibility
                               INSPECTOR    GENERAL
                              DEPARTMENT   OF DEFENSE
                                400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202




                                                                            April 20, 1998

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
               SERVICE

SUBJECT: Audit Report on Accounting for Defense Logistics Agency Supply
         Management Receivables (Report No. 98-116)


       We are providing this audit report for review and comment. The Director,
Defense Finance and Accounting Service, and the Director, Defense Finance and
Accounting Service Columbus Center, did not respond to the draft report.

      DOD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that the Defense Finance and Accounting Service provide comments on
Recommendations 1., 2., and 3 ., by June 22, 1998.

       We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Richard B. Bird, Audit Program Director, at (703) 604-9175
(DSN 664-9 175) (e-mail: Rbird@dodig.osd.mil) or Mr. Byron B. Harbert, Audit Project
Manager, at (303) 676-7405 (DSN 926-7405) (e-mail: Bharbert@dodig.osd.mil). See
Appendix B for the report distribution. The audit team members are listed inside the back
cover.




                                         David K. Steensma
                                  Deputy Assistant Inspector General
                                            for Auditing
                         Offke of the Inspector General, DOD

ReportNo. 98-116                                                           April 20, 1998
       (Project No. 5FD-2019.02)


                    Accounting for Defense Logistics Agency
                        Supply Management Receivables


                                   Executive Summary

Introduction. We identified the issue of accounting for Defense Logistics Agency supply
management receivables during our audit of accounts receivable in the FY 1996 Defense
Business Operations Fund financial statements (the accounts receivable audit). This is the
second and final report of the accounts receivable audit. The first report addressed past
due Federal accounts receivable and writing off debts owed by other Federal agencies.
The accounts receivable audit was initiated to support the Chief Financial Officers Act of
1990 (Public Law 101-576, November 15, 1990) as amended by the Federal Financial
Management Act of 1994 (Public Law 103-356, October 13, 1994). We issued a
disclaimer of opinion on the FY 1996 Defense Business Operations Fund financial
statements in Inspector General, DOD, Report No. 97- 178, “Internal Controls and
Compliance with Laws and Regulations for the Defense Business Operations Fund
Consolidated Financial Statements for FY 1996,” June 26, 1997.

The Defense Logistics Agency reported $975 million of the $7.3 billion in accounts
receivable reported in the FY 1996 Defense Business Operations Fund consolidated
financial statements. Of the $975 million, $494 million pertained to the supply
management business area.

On December 11, 1996, the Under Secretary of Defense (Comptroller) announced that the
Defense Business Operations Fund would be segregated into five separate working capital
funds, one of which would be the Defense-Wide Working Capital Fund for Defense
agencies that would be managed by the Defense Logistics Agency. That realignment does
not affect the issues discussed in this report.

Audit Objectives. Our objective was to determine whether the accounts receivable on
the FY 1996 Defense Business Operations Fund consolidated financial statements were
presented fairly in accordance with the “other comprehensive basis of accounting”
described in Office of Management and Budget Bulletin No. 94-01, “Form and Content of
Agency Financial Statements,” November 16, 1993. For this part of the audit, we
determined whether Defense Logistics Agency supply management receivables were
accurately accounted for, classified, and reported in the Statement of Financial Position.
In addition, we reviewed the management control program as it applied to the overall
audit objective.

Audit Results. The Defense Finance and Accounting Service did not accurately account
for over $4 18 million in Defense Logistics Agency supply management receivables.
Specifically-

         o Defense Finance and Accounting Service personnel did not accurately post the
transactions required to record up to $335 million in refunds due from Defense Logistics
Agency contractors. Of that $335 million, a $209 million write-off was not disclosed in
the notes to the Defense Business Operations Fund Consolidated Statement of Financial
Position. In addition, over $10.8 million in interest, penalties, and administrative charges
was not accrued and disclosed in the financial statements related to the $335 million in
refunds.

        o Receivables in excess of $72 million were not accurately accounted for and
reported in the consolidated statement of financial position. Over $45 million of the
$72 million was billable and required immediate collection.

As a result, the Defense Logistic Agency FY 1996 Defense Business Operations Fund
financial statements were materially misstated, and the notes to the principal statements
did not accurately disclose key financial information. If they are not corrected, future
financial statements will continue to be materially misstated. See Part I for a discussion of
the audit results, and Appendix A for a discussion of the management control program.
Summary of Recommendations.          We recommend that the Director, Defense Finance and
Accounting Service, establish procedures to properly account for debts at the Debt
Management Office and to record debts in all accounting and numbering systems that are
required by the U.S. Standard General Ledger. We recommend that the Director, Defense
Finance and Accounting Service Columbus Center, direct the Stock Fund Accounting and
Payments Directorate to bill the DOD organizations owing the Defense Personnel Support
Center $45 million in transportation costs for the shipment of subsistence items overseas.

Management   Comments. The Defense Finance and Accounting Service did not
comment a draft of this report. We request the Defense Finance and Accounting Service
provide comments on the final report by June 22, 1998.




                                             ii
Table of Contents
Executive Summary                        i

Part I - Audit Results
      Audit Background                  2
      Audit Objectives                  3
      Accounting for Receivables        4

Part II - Additional Information
      Appendix A. Audit Process         12
        Scope                           12
        Methodology                     12
        Management Control Program      13
        Summary of Prior Coverage       14
      Appendix B. Report Distribution   15
Part I - Audit Results
Audit Background

    Introduction. We identified the issue of accounting for Defense Logistics
    Agency (DLA) supply management business area receivables during our audit of
    accounts receivable in the FY 1996 Defense Business Operations Fund (DBOF)
    financial statements. The DLA reported $975 million of the $7.3 billion in
    accounts receivable reported in the FY 1996 DBOF consolidated financial
    statements. Of the $975 million, $494 million pertained to the Supply
    Management business area. This is the second and final report addressing
    accounts receivable. The first report addressed past due Federal accounts
    receivable and the write-off of Federal debt.

    This audit was initiated to support the Chief Financial Officers Act of 1990
    (Public Law 101-576, November 15, 1990)) as amended by the Federal
    Financial Management Act of 1994 (Public Law 103-356, October 13, 1994).

    In December 1996, the Office of the Under Secretary of Defense announced
    that the DBOF would be realigned into five working capital funds, one of which
    would be the Defense-Wide Working Capital Fund for Defense agencies that
    would be managed by DLA. That realignment will not affect the issues raised
    in this report.

    Audit Criteria. The Office of the Under Secretary of Defense (Comptroller)
    issued DOD Regulation 7000.14-R, “DOD Financial Management Regulation, ”
    under the authority of DOD Instruction 7000.14, “DOD Financial Management
    Policy and Procedures, n November 15, 1992. DOD 7000.14-R establishes and
    enforces the principles, standards, systems, procedures, and practices necessary
    to comply with DOD financial management regulations.

    The volumes of DOD Regulation 7000.14-R applicable to DBOF and to this
    report included, Volume 1, “General Financial Management Information,
    Systems, and Requirements,” May 1993; Volume 4, “Accounting Policy and
    Procedures,” January 1995; Volume 10, “Contract Payment Policy and
    Procedures, ” February 1996; and Volume 1lB, “Reimbursable Operations,
    Policy and Procedures - Defense Business Operations Fund, ” December 1994.

    United States Standard General Ledger. The Federal Financial Management
    Improvement Act of 1996 requires Federal agencies to use the U.S. Standard
    General Ledger at the transaction level for the fiscal year ending September 30,
    1997. The DOD Standard General Ledger complied with the U.S. Standard
    General Ledger at the summary account level. The DOD Standard General
    Ledger includes general ledger accounts for assets, such as refund and claims
    receivable, that were necessary for DOD financial management oversight and
    accountability but that were not included in the U.S. Standard General Ledger.
    The DOD Standard General Ledger account numbers were not used in
    accordance with the numbering system of the U.S. Standard General Ledger.




                                        2
     Office of the Under Secretary of Defense (Comptroller) and Defense Finance
     and Accounting Service (DFAS) officials have recognized the differences and
     have taken steps to correct the numbering.

     Accounting Organizations. The Stock Fund Accounting and Payments
     Directorate (the Directorate), DFAS Columbus Center, provides financial and
     accounting services to the stock fund organizations within the DLA supply
     management business area. As of September 30, 1996, DFAS reported
     $71.9 million in claims receivables for DLA supply management organizations.
     Those organizations included the Defense Construction Supply Center, Defense
     Electronics Supply Center, Defense Fuel Supply Center, Defense Industrial
     Supply Center, and the Defense Personnel Support Center. The Agency
     Reporting Branch of the Accounting Division at the DFAS Columbus Center
     consolidates the financial data submitted by the Stock Fund Accounting and
     Payments Directorate in the monthly and annual financial statements.

     The DFAS Columbus Center also contains the Debt Management Office, which
     was responsible for collecting over $335 million in past due contractor debts
     that were owed to DLA supply management organizations. Each month, the
     Debt Management Office prepared and submitted a report to the Agency
     Reporting Branch, which disclosed the beginning and ending month balances of
     debts. The Agency Reporting Branch recorded the ending balance in the DLA
     supply management monthly and annual consolidated financial statements.

Audit Objectives
    The overall objective was to determine whether accounts receivable on the
    FY 1996 DBOF consolidated financial statements were presented fairly in
    accordance with the “other comprehensive basis of accounting” described in
    Office of Management and Budget Bulletin No. 94-01, “Form and Content of
    Agency Financial Statements, ” November 16, 1993. We determined whether
    DLA supply management receivables were accurately accounted for, classified,
    and reported in the Statement of Financial Position. In addition: we reviewed
    the management control program as it applied to the overall audit objective.
    See Appendix A for a discussion of the audit scope, methodology, management
    control program, and prior audit coverage.
           Accounting for Receivables
           The DFAS Columbus Center did not accurately account for $418 million
           in accounts receivable of the DLA supply management business area.
           Of that amount, DFAS did not post the transactions required for
           recording up to $335 million in refunds receivable due from DLA
           contractors, and did not post over $10.8 million in receivables from
           accrued interest, penalties, and administrative charges applicable to
           past-due contractor debts. An additional $45 million of accounts
           receivable and $26.9 million of refunds receivable were improperly
           recorded and reported as claims receivable. Over $324,000 in accounts
           payable was incorrectly accounted for as a contra account to accounts
           receivable. Those accounting deficiencies existed because DFAS did not
           implement the requirements of DOD Regulation 7000.14-R. The
           accounting requirements included:

                   o The use of the DOD Standard General Ledger and instructions
           for posting receivable-related transactions;

                   o The use of the allowance method for recording bad debt
           expense and for reporting the net realizable value of receivables in the
           principle statements, and explaining material events in the accompanying
           notes; and,

                   o The accrual of interest, penalties and administrative charges on
           past due receivables and use of the allowance method for reporting the
           net realizable value of amounts accrued.

           As a result, the DLA FY 1996 DBOF financial statements were
           materially misstated, and the notes to the principle statements did not
           accurately disclose key financial information. If they are not corrected,
           future financial statements will continue to be materially misstated.


Refunds Receivable
    Contractor Debt. The DFAS Columbus Center did not post the transactions
    required by DOD Regulation 7000.14-R, Volume 4, Chapter 3, and Volume
    1lb, Chapter 54, to accurately account for up to $335 million in refunds due
    from contractors during FY 1996. DFAS did not maintain a complete general
    ledger that allowed personnel to post the transactions that were required to
    accurately account for the debts that were transferred to the Debt Management
    Office for collection. DFAS Columbus Center maintained only a partial record
    of the debts transferred to the Debt Management Office in the official
    accounting records.

            General Ledger. The DFAS Directorate accounting systems did not
    have a complete general ledger to post write-offs for uncollectible accounts
    using the allowance method. The allowance method matches the losses that are
    expected to be incurred in a particular period against the revenues for the same


                                        4
period. In some instances, DFAS Columbus Center did not record the
receivable and subsequent write-off when the debt was posted in the official
accounting records, and DFAS was later notified that a collection had been
transferred to the Debt Management Office. In other instances, when the debt
was recorded in the official accounting records, DFAS Columbus Center wrote
the loss off in the period that the debt was transferred to the Debt Management
Office for collection. The allowance method provides financial managers with a
more accurate picture of financial operations and a more timely recovery of
losses of bad debts by matching current-year estimated losses to revenues for
inclusion in the applicable surcharge rates. To illustrate, the DLA supply
management consolidated accounting report for November 1995 should have
disclosed a balance of $335 million in refunds receivable recorded in the Debt
Management Office inventory. However, the November 1995 consolidated
accounting report disclosed a balance of only $50 million. The difference of
$285 million was the amount of debt owed by vendors that had filed for
bankruptcy. Under the allowance method, the November 1995 consolidated
accounting report should have disclosed gross receivables of $335 million and
an allowance for loss on accounts receivable of $285 million.

         Official Accounting Records. The Directorate did not maintain the
official accounting records for the debts administered by the Debt Management
Office in accordance with DOD Regulation 7000.14-R, Volume 10. The Chief
of the Accounting Division within the Directorate stated that the DFAS
Columbus Center complied with the intent of DOD Regulation 7000.14-R.
However, the DFAS Columbus Center did not have general ledger accounting
controls over each of the debts within the Debt Management Office. Instead,
the DFAS Columbus Center relied on a consolidated report that summarized the
net change in the Debt Management Office monthly balances. The consolidated
report was prepared using a Debt Management Office monthly statistical report
and was not prepared in accordance with DOD Regulation 7000.14-R, Volume 4

The Directorate did not have the official accounting records that it needed to
reconcile general ledger account balances with subsidiary records. DFAS
Columbus Center personnel did not post the individual transactions that were
required to record new debts, to reverse previous refunds determined to be
invalid, and to write off debts. Instead, when the Debt Management Office
reported a net increase in debt, the Agency Reporting Branch posted a
transaction that increased the “Claims Receivable” balance and increased the
“Other Income” account by the change in the debt inventory balance. When the
Debt Management Office reported a decrease, the transaction was reversed.
The transaction affecting the “Other Income” account was incorrect because
overpayments made to contractors (refunds due to erroneous payments) were not
income. To accurately record the transaction, DFAS Columbus Center
personnel must identify the purchase or expense account that was originally
increased when the erroneous payment was made and reduce the purchase or
expense account for the amount collected on the debt.

FY 1996 Financial Statement Accounting and Disclosure. The DFAS
Columbus Center did not accurately account for and disclose DLA events
affecting up to $335 million in refunds receivable. The FY 1996 financial
statements should have disclosed an accounts receivable line of $113 million as
of September 30, 1996, and disclosed in Note 5 of the statements an allowance


                                   5
Accountiw for Receivables


      for loss on accounts receivable of $209 million. Instead, the DFAS Columbus
      Center reported an accounts receivable line of $43 million. The balance of the
      $335 million, $13 million was incorrectly recorded when personnel did not post
      transactions totaling $8.9 million to reverse invalid receivables and when
      personnel erroneously posted $3.7 million in cash receipts as cash collections
      instead of reversing the disbursement made in the original transaction.


Interest Receivable
      Accrued Interest. The DFAS Columbus Center did not accrue or record in
      accounting records the interest, penalties, and administrative charges on the
      $335 million in contractor debt reported by the Debt Management Office. DOD
      Regulation 7000.14-R, Volume 4, Chapter 3, requires the DFAS Columbus
      Center to accrue interest, administrative charges, and penalties on past-due
      refunds owed to the U.S. Government. Therefore, those accruals should have
      been recorded in an interest receivable general ledger account. An allowance
      for loss on the interest receivable was also required similar to the allowance for
      losses on accounts receivable. In FY 1996, the Debt Management Office
      proposed a systems change to accrue interest, administrative charges, and
      penalties to bring the Defense Debt Management System into compliance with
      DOD Regulation 7000.14-R. However, the accounting system change order was
      not implemented because of other system priorities established by DFAS
      Headquarters. As a result, over $10.8 million of interest receivable was not
      accrued or reported to the DFAS Directorate for recording in the accounting
      records.


DLA Stock Fund Receivables
      DOD Standard General Ledger Chart of Accounts. As of September 30,
      1996, the DFAS Columbus Center Directorate reported approximately
      $82 million in DLA receivables. The receivables were accounted for using the
      DLA general ledger, which did not meet the requirements of either the U.S.
      Standard General Ledger or the DOD Standard General Ledger. Figures 1 and 2
      compare the DLA and DOD charts of account structure.




                                          6
                                                             Accountiw for Receivables

   Account No.                      Account Title

        115                Accounts Receivable - Government - Current
        117*               Accounts Receivable - Total Asset Visibility
        119                Accounts Receivable - Public - Current
        155                Claims Receivable

* Contra-asset account. An account that decreases the related general ledger asset account
balance, such as an allowance for loss on accounts receivable that reduces the receivable
balance to its net realizable value.

Figure 1. DLA Chart of Accounts for Receivables

  Account No.                       Account Title

     1311                    Accounts Receivable - Government - Current
     1312                    Accounts Receivable - Government - Noncurrent
     1313                    Accounts Receivable - Public - Current
     1314                    Accounts Receivable - Public - Noncurrent
     1315                    Refunds Receivable - Government
     1316                    Refunds Receivable - Public
     1319*                   Allowance for Loss on Accounts
                             Receivable - Government
     1319.1*                 Allowance for Loss on Accounts
                             Receivable - Government
     1319.2*                 Allowance for Loss on Accounts Receivable - Public
     1320                    Claims Receivable
     1340                    Interest Receivable
     1349*                   Allowance for Loss on Interest Receivable

* For contra-asset accounts see Figure 1 explanation.

Figure 2. DoD Chart of Accounts for Receivables

The DOD Standard General Ledger chart of accounts (Figure 2) included
accounts not separately used in the DLA Chart of Accounts (Figure 1). In
particular, the DLA general ledger did not distinguish between claims and
refunds receivable.

Claims Receivable versus Refunds Receivable. DOD accounting policy
defines claims and refunds receivable as separate and distinct classes of
receivable.

       o Claims receivable represents amounts owed by commercial carriers
for damages to and losses in shipments of items through the fault of the carrier.
Claims receivable also includes amounts owed by individuals as a result of loss,
damage, and destruction of Government property.

        o Refunds receivable represents amounts owed by other Government
organizations, and private sources (for example, contractors or vendors) because
of erroneous payments and unliquidated advances.
Accounting for Receivables


      DFAS Stock Fund Accounting. In June 1989, DLA initiated a systems change
      request to incorporate the DOD standard general ledger into the Standard
      Automated Materiel Management System (SAMMS). However, the systems
      change was not implemented. The SAMMS is the principal accounting system
      for the DLA Supply Management business area. Consequently, DLA
      receivables continued to be commingled, and separate subsidiary records did not
      exist for refunds receivable. The Chief of the Accounting Division, Stock Fund
      Accounting and Payments Directorate, considered the interim measures
      described below:

                 Currently, collections for overpayments are recorded in Account 155,
                 contractor claims. However, since we do not have a refunds receivable
                 account, the associated collection is recorded as a reverse disbursement
                 and the claim is deleted. For the present we prefer to continue
                 recording overpayments in account 155 and to annotate the amount in
                 our narrative and our quarterly report, accounts receivable due from
                 the public. This is the simplest method and would provide the needed
                 information. In an effort to correct this problem in the general ledger,
                 we will put a systems change request to establish account 119.900,
                 accounts receivable - other. We thought of using 119.999, which is
                 normally used for transactions that cannot be routed to the right
                 subaccount. This, however, is clumsy. manual and would impact
                 numerous accounts.

      The interim measures and temporary systems changes could be labor intensive
      and still not comply with the DOD Regulation 7000.14-R requirements.
      Converting SAMMS to the DOD Standard General Ledger is the only viable
      alternative to expeditiously correct the problems with receivables.

      Asset Classification. The DFAS Columbus Center incorrectly classified
      accounts receivable due from other Government agencies in the Defense
      Integrated Subsistence Management System (DISMS) and other DLA supply
      management accounting systems. In addition, the DFAS Columbus Center did
      not record accounts payable arising from packaging, crating and handling, and
      transportation (PCH&T) costs to other Government agencies incurred by the
      Total Asset Visibility (TAV) program.

               o DISMS. Of the $82 million in DLA supply management receivables
      reported, $50 million was attributed to the Defense Personnel Support Center
      Subsistence stock fund. Of the $50 million, over $45 million was misclassified
      as claims receivable instead of receivables from Government agencies. The
      Defense Personnel Support Center Subsistence stock fund was owed the
      $45 million by other DOD organizations to reimburse the stock fund for the cost
      of overseas transportation of subsistence. According to the Chief of the
      Accounts Receivable Branch, the $45 million was billable, and the billings were
      past due. The receivables that were misclassified as claims receivable hindered
      the collection of the accounts because the laws governing the collection of an
      accounts receivable from a Government agency differ from the laws governing
      collection of accounts receivable from commercial carriers, vendors, and
      individuals. Collections of accounts receivable from Government agencies are
      governed by the Economy Act (Title 31, United States Code, Section 1535),
      which requires Government agencies to pay their debts. The laws governing


                                               8
                                                        Accounting for Receivables

    debts owed by the public provide for writing off debt and other provisions, such
    as bankruptcy. Consequently, the $45 million of receivables from other DOD
    organizations that were improperly classified as claims receivable from the
    public resulted in those receivables not being billed and collected.

             o Other DLA Supply Management Stock Funds. Approximately
    $32 million of the $82 million balance could be attributed to the classification of
    refunds as claims receivable within the other Stock Fund accounting systems,
    such as the SAMMS and Defense Fuel Automated Management System. Proper
    classification of the receivables within the general ledger account structure of
    those systems is needed to ensure that account balances are correct and
    reconcilable through subsidiary records.

            o TAV Program. Over $324,OtXI in PCH&T costs were recorded as a
    contra account to accounts receivable in the DFAS accounting records. The
    DLA owed the Air Force Retail Stock Fund the PCH&T costs incurred after
    DLA item managers ordered materiel shipped from Air Force retail stores to
    other locations. Although DLA owed the Air Force Retail Stock Fund the
    PCH&T costs, the correct method for accounting for the reimbursement should
    have been to record the costs as an accounts payable. Recording the PCH&T as
    a contra account to receivables understated the total assets and liabilities by
    $324,0     in the Statement of Financial Position. Although the TAV program
    was relatively small in FY 1996 (6 locations), it is expected to expand to a total
    of 232 locations worldwide and, consequently, will have a far greater impact on
    the understatement of assets and liabilities in the future if accounting problems
    go uncorrected.


Summary
    The DFAS Columbus Center did not accurately account for accounts receivable,
    did not accurately report and fully disclose the status of receivables in the DLA
    FY 1996 DBOF financial statements, did not properly classify receivables, and
    did not take action to bill and collect $45 million of receivables from
    Government agencies. The DFAS Columbus Center was unable to properly
    account for receivables because it had not fully implemented the DOD Standard
    General Ledger in accounting systems and had not established needed subsidiary
    records.


Recommendations for Management Comments

    1. We recommend that the Director, Defense Finance and Accounting
    Service establish procedures to implement the provisions of
    DOD Regulation 7000.14-R, “DOD Financial Management Regulation,” for
    accounts receivable at the Defense Finance Accounting Service Columbus
    Center. Those provisions include:

           a. maintaining the official accounting records for debts transferred
    to the Debt Management Office for collection;



                                         9
AccountinP for Receivables


             b. accruing and recording interest, penalty, and administrative
      charges on past due accounts;

              c. establishing   the allowances for loss on accounts and interest
      receivable;

             d. properly classifying accounts;

             e. establishing    subsidiary   records; and

              f. reconciling general ledger account balances with the subsidiary
      records.

      2. We recommend the Director, Defense Finance and Accounting Service,
      implement the DOD Standard General Ledger in all applicable accounting
      systems and the numbering system required by the U.S. Standard General
      Ledger in accordance with the Federal Financial Management Improvement
      Act of 1996.

      3. We recommend that the Director, Defense Finance and Accounting
      Service Columbus Center, direct the Stock FImd Accounting and Payments
      Directorate to bill the $45 million in past due receivables for reimbursing
      the Defense Personnel Support Center for the overseas transportation cost
      of subsistence items.


Recommendations           for Management            Comments

      The Defense Finance and Accounting Service did not comment on a draft of this
      report. We request that the Defense Finance and Accounting Service provide
      comments on the final report.




                                             10
Part II - Additional Information
Appendix A. Audit Process

Scope
    We reviewed DFAS Columbus Center accounting policies and procedures for
    DLA supply management receivables in conjunction with the audit of accounts
    receivable in the FY 1996 DBOF financial statements (the accounts receivable
    audit). As part of the accounts receivable audit, we examined the DFAS
    Columbus Center Directorate accounting policies and procedures for over
    $427 million in DLA supply management receivables for the period
    October 1, 1995 through September 30, 1996. The DOD Regulation 7000.14-R
    Volumes 1, 4, 10 and llb provided the criteria used in that examination and
    included a review of the general ledger accounts and subsidiary records for the
    SAMMS, the Defense Integrated Subsistence Management System, and the
    Defense Fuel Automated Management System. We specifically examined
    procedures for determining whether past-due accounts that were transferred to
    the DFAS Columbus Center Debt Management Office were maintained in the
    official accounting records, that general ledger and subsidiary ledger accounts
    were periodically reconciled, and that losses on bad accounts were estimated
    and written off using the allowance method.


Methodology
    Audit Work Performed. We evaluated the DFAS Columbus Center
    accounting system general ledger and procedures affecting receivables for the
    DLA Supply Management Business Area. We contacted personnel from the
    DLA Comptroller and DFAS Columbus Center to review the existing
    procedures. Discussions with personnel from the Stock Fund Accounting and
    Payments Directorate, Accounting Directorate, and Debt Management Office at
    the DFAS Columbus Center provided information about the accounting reports
    and procedures used to record and disclose receivable balances of debts
    transferred to the Debt Management Office for collection.

    Audit Type, Period, and Standards. We performed this financial-related
    audit from May 1995 through September 1997, in accordance with auditing
    standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DOD.

    Use of Computer-Processed Data. We used automated listings of contractor
    debts in the possession of the Debt Management Office and related reports and
    trial balance information from the Stock Fund Accounting and Payments
    Directorate. We did not evaluate the general and application controls of the
    Debt Management Office and Stock Fund Accounting and Pavments Directorate
    systems that processed the data, although we relied 0’; data px&luced by those
    systems to conduct the audit. We did not evaluate the controls because the



                                       12
                                                         Auuendix A. Audit Process

    accuracy of the data was not a principal concern at the time of audit. However,
    not evaluating the controls did not affect the results of the audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DOD. Further details are available upon request.


Management Control Program
    DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of Management Control Program. We reviewed the
    adequacy of the DFAS Columbus Center management control program as it

    related to the transfer of DLA supply management receivables to the Debt
    Management Office for collection and the reconciliation of general ledger
    Columbus Center accounting policies and procedures complied with DOD
    Regulation 7000.14-R for the implementation of the DOD Standard General
    Ledger; accrual of interest, administrative charges, and penalties on past due
    accounts; and estimation of losses on bad debts and write-offs using the
    allowance method.

    Adequacy of Management Controls. We identified a material management
    control weakness as defined by DOD Directive 5010.38. Management controls
    at the DFAS, Columbus Center, were not adequate to accurately account for
    and disclose financial events affecting DLA supply management receivables
    transferred to the Debt Management Office for collection. This weakness is
    material at the DFAS level. Recommendation 1 ., if implemented, will ensure
    the accurate and full disclosure of financial events affecting past-due contractor
    debts (valued at $335 million in FY 1996). Recommendation 3.) if
    implemented, will ensure the collection of $45 million in past-due accounts
    receivable from DOD organizations for the overseas transportation of
    subsistence. A copy of the report will be provided to the senior official
    responsible for DFAS management control program.

    Adequacy of Management’s Self-Evaluation at DFAS. DFAS officials
    identified the Stock Fund Accounting and Payments Directorate and Debt
    Management Office as assessable units in the current management control
    program. However, DFAS officials did not correlate tests to determine whether
    the DLA supply management past-due accounts that were transferred to the
    Debt Management Office were reconciled for accuracy and completeness. As a
    result, DFAS officials did not identify the material management control
    weakness.




                                        13
Armendix A. Audit Process


Summary of Prior Coverage                     .


      Audit Report No. 97-178, “Internal Controls and Compliance with Laws and
      Regulations for the Defense Business Operations Fund Consolidated Financial
      Statements for FY 1996,” June 26, 1997. We were unable to render an opinion
      on the FY 1996 DBOF consolidated financial statements because of deficiencies
      in the internal control structure and compliance with laws and regulations. As a
      result, the financial position of DBOF could not be determined or presented in a
      fair and timely fashion.




                                         14
Appendix B. Report Distribution


Office of the Secretary of Defense

Under Secretary of Defense for Acquisition and Technology
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
   Director, Accounting Policy
Assistant Secretary of Defense (Public Affairs)


Department of the Army

Auditor General, Department   of the Army


Department of the Navy

Assistant Secretary of the Navy (Financial Management   and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force

Assistant Secretary of the Air Force (Financial Management    and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Columbus Center
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                            15
Auuendix   B. Reuort Distribution



Non-Defense Federal Organizations and Individuals

Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional     committees
  and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Aftairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security




                                            16
Audit Team Members
This report was prepared by the Finance and Accounting   Directorate,   Office of
the Inspector General for Auditing, DOD.

F. Jay Lane
Byron B. Harbert
David M. Barbour
John W. Sullenberger
Susanne B. Allen
